MOTION TO PROCEED IN FORMA PA UPERIS
No.

Rene Gosselin,
Petitioner
v.
Commonwealth of Massachusetts
Respondent

Now comes Rene Gosselin and moves that he be allowed to proceed In Forma
Pa uperis.
As grounds therefore, instant appellate counsel states that he was appointed
by the Committee for Public Counsel Services (CPCS) due to Mr. Gosselin's
indigency. CPCS is the public defender agency in Massachusetts. Counsel's
appointment was made pursuant to G.L. c. 211 §§ 5, 6(b), and 8.
In addition, based on information and belief, trial counsel was similarly
appointed to represent Mr. Gosselin at trial, due to his indigency.
A motion was not made to proceed in forma pauperis in another court
because in Massachusetts there are no docketing fees for criminal appeals. M.R.A.P.
10(a)(2).
Counsel for Petitioner Rene Gosselin

Theodore Francis Riordan, Esq.
TRiordan@BatesRiordan.com
BATES & RIORDAN, LLP
5 Beale Street
Quincy, Massachusetts 02170
FAX 617-328-8035
Telephone 617-328-8080
Dated: February 18, 2021

